U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

November 13, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Baldassare Amato v. United States of America,
S.CtNo. 19-515

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 17,
2019, and placed on the docket on October 21, 2019. The government's response is due on
November 20, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 20, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-05 15
AMATO, BALDASSARE
USA

DAVID I. SCHOEN
DAVID I. SCHOEN, ATTORNEY AT LAW
2800 ZELDA ROAD
SUITE 100-6
MONTGOMERY, AL 36106
334-395-66 1 1
DSCHOEN593@AOL.COM

